    APPENDIX
   SUMMARY                      DIMENSIONAL MAIL               ELECTRONIC MAIL   CONNECTED MAIL   INTRODUCTION   TABLE OF   EXECUTIVE
                                                                                                                 CONTENTS   SUMMARY




                                                                                            Mail




                                Report Number


           September 22, 2014
                                RARC-WP-14-013
                                                 RARC Report
                                                                                            Innovations




Print
EXECUTIVE
SUMMARY
                                Executive Summary
                                Despite the sharp increase in digital communications in recent years, mail still elicits a strong connection with recipients.
                                Past work by the U.S. Postal Service Office of Inspector General (OIG) reveals that mail is a critical piece of an
                                omnichannel strategy, which gives consumers a seamless and meaningful experience across a variety of media channels
                                and provides marketers with a rich source of useful information. Now, more than ever, advertising campaigns must
CONTENTS
TABLE OF




                                compete for recipients’ attention, as people are exposed to hundreds, if not thousands of advertisements on a daily basis.
                                To give consumers of all ages advertising messages that are relevant, interesting, and dynamic, mailers can incorporate
                                a number of innovations into their mailpieces. These innovations can allow the marketing message to stand out, either by
                                providing additional content in an easily accessible digital space, incorporating handy electronics into the mailpiece, or
                                using unique materials and design to capture the reader’s attention.
INTRODUCTION




                                This paper provides an overview of ten mail innovations that range from commonly used and well-known tools to some
                                that are still emerging, and even one that is still in the research and development phase. The OIG interviewed companies
                                that create and support these innovations to learn more about them and what they can do to strengthen a mail campaign.
                                These innovations can be more effective engaging customers and garnering a positive response, either in terms of
CONNECTED MAIL




                                recipient feedback or sales metrics.

                                Each page of this paper highlights a separate innovation and includes          Category             Innovations Highlighted
                                information a postal stakeholder might want to know before investing                                in This Paper
                                in a new technology, such as price, reported response rates, how the
                                                                                                               Connected Mail       QR Codes
ELECTRONIC MAIL




                                innovation is made, how it is used, case studies, demonstrations, and
                                what type of business intelligence the sender receives from                                         Augmented Reality
                                responses. The paper organizes these innovations in one of the                                      Near Field Communication
                                following three categories:
                                                                                                                                    Webkeys

                                ■■ Connected mail, which through the use of a mobile device or                 Electronic Mail      Video in Print
DIMENSIONAL MAIL




                                   computer, connects recipients to a digital experience that allows                                Mobile in Print
                                   users to choose how they would like to engage with the product.
                                                                                                                                    Conductive Ink

                                ■■ Electronic mail, which includes an embedded electronic component,           Dimensional Mail     Interesting Inks
                                   like a video screen.                                                                             Customized MarketMail

                                                                                                                                    3D Mail
                                ■■ Dimensional mail, which includes innovations that transform
SUMMARY
 APPENDIX




                                   mailpieces, either by using nontraditional ink, materials, or designs.

                   Mail Innovations Report Number RARC-WP-14-013                                                                  Print                         1
EXECUTIVE
SUMMARY
                                Using mail innovations, including those highlighted in this paper, enhances the effectiveness and value of mail for both
                                senders and recipients. These innovations can allow senders to better capture their customers’ attention; provide more
                                information than can typically fit in a standard mailpiece; create an instantaneous, easy-to-use buying experience; and
                                receive feedback on how customers are interacting with the mailpiece. Senders could also benefit from increased brand
                                awareness while building corporate goodwill.
CONTENTS
TABLE OF




                                Innovative mailpieces can also provide value to recipients, as they can give the recipients control of the advertising
                                experience in which they engage. Many of these innovations provide outlets for instantaneous access to more product or
                                brand information. They could also provide coupons, contest entries, real-time directions to the nearest store, games, or
                                exclusive previews of new products. The goal of these innovations is to engage and inform recipients. This could be in the
INTRODUCTION




                                form of bonus content, like an online game, or something to put on their refrigerator or office desk or give to their children.
                                Higher quality mailpieces can make the recipient feel appreciated by the sender.

                                This paper is intended to raise awareness about various mail innovations and give the reader enough information
                                about each innovation to help them think about how they can incorporate these innovations into their own
                                communications campaigns.
CONNECTED MAIL
ELECTRONIC MAIL
DIMENSIONAL MAIL
SUMMARY
 APPENDIX




                   Mail Innovations Report Number RARC-WP-14-013                                                                 Print                            2
EXECUTIVE
SUMMARY
                                                          Cover
                                                          Executive Summary.......................................................................................... 1
                                                          Introduction........................................................................................................ 4
                                                              Background................................................................................................... 4
                                                              Postal Service Promotions............................................................................ 5
CONTENTS
TABLE OF




                                                              Research Activities........................................................................................ 6
                                                              Information Categories.................................................................................. 6
                                                              Summary of Key Features of Mail Innovations............................................. 8
                                                          Connected Mail................................................................................................. 9
INTRODUCTION




                                                              QR Codes..................................................................................................... 9
                                                              Augmented Reality...................................................................................... 10
                                                              Near Field Communication......................................................................... 11
                                                              Webkeys..................................................................................................... 12
CONNECTED MAIL




                                                          Electronic Mail................................................................................................. 13
                                                              Video in Print............................................................................................... 13
                                                              Mobile in Print............................................................................................. 14
                                                              Conductive Ink - Research and Development............................................ 15
                                                          Dimensional Mail............................................................................................. 16
ELECTRONIC MAIL




                                                              Interesting Inks............................................................................................ 16
                                                              Customized MarketMail.............................................................................. 17
                                                              3D Mail........................................................................................................ 18
                                                          Appendix: Research Activities......................................................................... 19
                                                          Contact Information........................................................................................ 20
DIMENSIONAL MAIL
SUMMARY
 APPENDIX




                   Mail Innovations Report Number RARC-WP-14-013                                                                                                           Print   3
EXECUTIVE
SUMMARY
                                Introduction
                                Direct mail continues to be one of the most powerful mediums for marketers to communicate their message, but
                                various print innovations can help companies make their physical mail resonate even more effectively. To maximize
                                the impact of a mailpiece, companies need to evaluate the role of direct mail in the context of a larger integrated
                                marketing campaign. Specifically, companies should first consider the goal of the campaign and the message they
CONTENTS
TABLE OF




                                hope to communicate. Then, companies should evaluate which medium can help them best convey their message
                                to consumers. When direct mail is chosen, companies could benefit from incorporating innovative features into the
                                mailpiece. Using innovative design and technology features in a direct mail campaign allows the sender to draw
                                attention to its message and more effectively communicate with the recipient. Targeting is important when incorporating
                                mailpiece innovations, both because of the additional cost of nontraditional mail and the importance of providing an
INTRODUCTION




                                integrated experience recipients can easily access and enjoy.

                                This paper highlights 10 mail innovations that can make mail more effective, ranging from the commonly used and
                                well-established to the latest and most cutting edge. It is intended to give readers a useful tool in understanding
                                these innovations and may aid them in choosing an innovation that can help them achieve their goals while still
CONNECTED MAIL




                                factoring in price, success metrics, and other relevant criteria. The number of companies the OIG contacted and the
                                promotions identified in this white paper represent a sample of print innovations available in the marketplace, but is
                                not an exhaustive list. As technology evolves and advertisers find new, creative ways to present company messages,
                                more innovations in direct mail will likely become available. This publication is provided for purposes of educating
                                stakeholders about some innovations available for mailers to enhance hardcopy communications. Statements made in
ELECTRONIC MAIL




                                this paper were provided by the companies interviewed and do not reflect the opinions of the OIG. The OIG does not
                                endorse or warrant any product or company described herein.

                                Background
                                An increasing number of Americans are connected to the Internet and use it to complete transactions, gather
DIMENSIONAL MAIL




                                information, and communicate. However, past work by the OIG has demonstrated that there is still a place for mail
                                in the everyday lives of Americans. The OIG recently conducted a body of work aimed at better understanding how
                                mail is used today, which parts of mail are most valued, and what role the Postal Service can play in the future. In one
                                project, the OIG completed focus groups with Digital Natives that were 16–25 years old.1 Most of the Digital Natives
                                reported that they checked their mail daily, and many agreed that their perception of companies that sent hardcopy
                                advertisements was more positive than companies that did not. Digital Natives were most interested in mail that
SUMMARY
 APPENDIX




                                1	 U.S. Postal Service Office of Inspector General, Enhancing Mail for Digital Natives, Report No. RARC-WP-14-001, November 18, 2013,
                                   https://www.uspsoig.gov/sites/default/files/document-library-files/2013/rarc-wp-14-001_enhancing_mail_for_digital_natives.pdf.


                   Mail Innovations Report Number RARC-WP-14-013                                                                                        Print           4
EXECUTIVE
SUMMARY

                                integrated digital features or stood out from traditional hardcopy mail, and they said they were more likely to keep
                                and share this type of mail.

                                These findings led the OIG to host a discussion forum entitled “Enhancing the Value of Mail.”2 The forum brought
                                together key industry players representing design companies, printers, U.S. Postal Service officials, and mailers to
CONTENTS
TABLE OF




                                discuss how mailpieces could be more effective. Specifically, the representatives discussed their companies’ use of
                                cutting-edge technology and print innovations to make mail more personal, relevant, digitally enabled, and central to the
                                consumer’s experience with a brand or product. An important takeaway from this event was that mail can be made more
                                effective through relatively easy, inexpensive tools. These tools are being underutilized in the marketplace, especially
                                with small and medium business mailers, perhaps because there is a lack of awareness about their availability.
INTRODUCTION




                                Postal Service Promotions
                                The Postal Service has taken steps to encourage its business customers to enhance the value of mail by offering
                                discount promotions for mailpieces that include various innovative features. The Postal Service’s upcoming
CONNECTED MAIL




                                2014 promotions include some of the innovations highlighted in this paper, but the majority of these innovations have
                                not yet been part of a Postal Service promotion. Postal Service promotions are intended to increase the value of
                                transactional and direct mail and to retain or sustain its long-term growth.3 Promotions can be beneficial both to postal
                                customers, by providing a discount for those that participate, and to the Postal Service, by increasing mail volume and
                                revenue. Information about which innovations are featured in Postal Service promotions in the remaining months of
                                2014 can be found on the Key Features of Mail Innovations matrix that follows this introduction.
ELECTRONIC MAIL




                                The majority of companies that have taken advantage of these promotions have been large mailers, according to a
                                Postal Service official. This may be because the average discount of 2 percent may not incentivize smaller mailers to
                                participate, while this may represent enough of a discount for large mailers to pursue innovations. Additionally, the
                                timing of the promotions, which typically run about two months, make it more difficult for smaller companies to
DIMENSIONAL MAIL




                                participate. According to a Postal Service official, small to medium businesses have had a more difficult time pursuing
                                these discounts, as the constrained time period and small promotional discount often do not fit into their budget or
                                mailing schedule.


                                2	 U.S. Postal Service Office of Inspector General, Enhancing the Value of Mail Follow-Up: Discussion Forum Recap, Report No. RARC-IB-14-001, April 3, 2013,
                                   http://www.uspsoig.gov/sites/default/files/document-library-files/2014/rarc-ib-14-001.pdf.
                                3	 U.S. Postal Service, “2014 Mailing Promotions and Incentives Calendar,”
SUMMARY




                                   https://ribbs.usps.gov/mailingpromotions/documents/tech_guides/2014MailPromotionsSummary.pdf.
 APPENDIX




                   Mail Innovations Report Number RARC-WP-14-013                                                                                         Print                                 5
EXECUTIVE
SUMMARY

                                Small and medium mailers may also be less likely than larger businesses to know about the promotions the
                                Postal Service offers, as they tend to have fewer resources available to track this information and understand the details
                                required to be eligible. However, small and medium businesses could benefit the same, if not more, from incorporating
                                innovations into their direct mail campaigns. This paper provides an overview of innovations that often lead to higher
                                response rates, rich feedback from recipients, and higher brand recognition. Innovations, some relatively simple and
CONTENTS
TABLE OF




                                others more complex, can create a significant impact on the effectiveness of campaigns.

                                Research Activities
                                To identify and summarize potential print innovations that could enhance the value of direct mail, the OIG received input
INTRODUCTION




                                on which innovations to feature from various sources, including the Organic and Printed Electronics Association and
                                presentations and demonstrations at the National Postal Forum. The OIG then contacted 25 companies and interviewed
                                all that responded. More information on methodology and a list of the companies that provided resources for this project
                                can be found in the appendix.

                                Information Categories
CONNECTED MAIL




                                The print innovations featured in this catalog are divided into three main categories: (1) connected mail,
                                (2) electronic mail, and (3) dimensional mail. Connected mail, through the use of a smart device or computer, connects
                                recipients to a digital experience that allows users to choose how they would like to engage with the product. Electronic
                                mail includes a self-contained electronic component, like a light or video screen. Dimensional mail includes innovations
ELECTRONIC MAIL




                                that transform mailpieces, either by using innovative ink, nonpaper material, or unique designs. Each page of the paper
                                provides an overview of a different print innovation and includes some of the following information:

                                ■■ Price – This describes how companies that provide this innovation determine the price. This section also provides
                                   any specific pricing information the OIG received through interviews with the companies offering innovation services.
                                   The prices often depend on a variety of factors, and may be subject to change.
DIMENSIONAL MAIL




                                ■■ Analytics – This describes what information the company can receive about the use of its product. This could include
                                   information detailing when, where, or how often the digital component is activated.

                                ■■ Effectiveness – This describes any data available on how much the innovation engages the user or drives the user
                                   to action. This could include information about the amount of time consumers engage with the piece and how often
                                   the piece is viewed or used.
SUMMARY
 APPENDIX




                   Mail Innovations Report Number RARC-WP-14-013                                                               Print                         6
EXECUTIVE
SUMMARY
                                ■■ How It Is Made – This describes how each innovation works, including the technological requirements, elements
                                   necessary to make the innovation function, and how many steps it takes to create a mailpiece with this type of
                                   innovation.

                                ■■ User Experience – This details what type of experience the innovative feature provides the user.
CONTENTS
TABLE OF




                                ■■ Response Rates – This details recipient response and examples of the innovation’s success in engaging
                                   consumers.

                                ■■ Demos – This provides links to videos of the innovation in action or presentations about how the innovation works.
INTRODUCTION




                                ■■ Case Studies – This provides sample case studies of the innovation from the companies the OIG interviewed.

                                The matrix on the next page highlights some key features of the various mail innovations detailed in the rest of the
                                paper. The matrix is intended to allow the reader to easily compare these various innovations to determine which could
                                best meet the reader’s needs.
CONNECTED MAIL
ELECTRONIC MAIL
DIMENSIONAL MAIL
SUMMARY
 APPENDIX




                   Mail Innovations Report Number RARC-WP-14-013                                                             Print                       7
EXECUTIVE
SUMMARY

                    Summary of Key Features of Mail Innovations
                                                         Augmented         Near Field                                                                                                  Customized
                                        QR Codes                                              Webkeys        Conductive Ink    Video in Print   Mobile in Print   Interesting Inks                   3D Mail
                                                           Reality       Communication                                                                                                 MarketMail
CONTENTS
TABLE OF




                                        By Month         By Month
                       How is it
                                            or               or           By Campaign         Per Piece            Per Piece    Per Piece         Per Piece            Per Piece       Per Piece    Per Piece
                       priced?
                                       By Campaign      By Campaign
INTRODUCTION




                        Are past
                        success
                        metrics
                       available?
CONNECTED MAIL




                        What do
                       consumers
                    need to use the
                      innovation?
                                           A                 A                                                       A
ELECTRONIC MAIL




                      Can it track
                       consumer
                       use of the
                      innovation?
DIMENSIONAL MAIL




                       Does the
                     Postal Service
                         offer a
                      promotion?*




                    *The promotions for 2014 have already been set, with two remaining. The U.S. Postal Service
                    released a list of proposed 2015 promotions, but it has not yet released its final promotion
                    calendar. Promotions that encourage the use of emerging technologies may encompass a                        Legend =
                                                                                                                                                                  A
SUMMARY




                    number of the innovations described within this paper. Mailers should verify an innovation’s                                Smart         Mobile        Internet    Computer    Eyes
 APPENDIX




                    eligibility with the U.S. Postal Service.                                                                                   Device         App




                   Mail Innovations Report Number RARC-WP-14-013                                                                                                          Print                                 8
                        QR Codes
EXECUTIVE
SUMMARY




                        Quick Response (QR) codes are perhaps the most common way to bring a digital component to print communications. QR codes typically appear as a
                        black-and-white grid of squares, an obvious sign that a printed page is a gateway to rich digital content, but they can also be designed with different colors
                        or a logo. Scanning a QR code with a smartphone or tablet can enable access to various online sources, such as directing a person to a website or allowing
                        them to download a coupon. QR codes are quick and convenient for consumers, while cost effective for businesses.
CONTENTS
TABLE OF




                         Quick Facts                                                              How It Is                             User                               Response
                                                                                                  Made                                  Experience                         Rates
                           Price                Some basic QR code generators are
                                                free, while other QR code services       •	 Many companies provide QR         •	 To scan a QR code, a user        •	 One company reported that
 INTRODUCTION




                                                can cost $5 per month or more. Price        code generators, which create        needs a smartphone or tablet        it processed 21.8 million QR
                                                depends on the content communicated         unique QR codes that contain         with a QR reader application        code scans in the first quarter
                                                via the code, the traceable consumer        the data required to guide users     (app). QR reader apps are           of 2014, up 20 percent from
                                                information collected, and whether          to an array of experiences using     widely available and many           the same period in 2013. The
                                                the QR code company helps                   their smartphone or tablet.          can be downloaded for free.         company’s quarterly report,
                                                create the mobile experience.            •	 Upon scanning a QR code, the      •	 Scanning a QR code can              issued in 2014, found that users
                                                                                            phone or tablet automatically        activate nearly any experience      of all ages employed QR codes,
                           Analytics            The QR code can track when, where, and      opens a web browser or another       a smartphone or tablet allows,      with the number of scans fairly
   CONNECTED MAIL




                                                how often each code is scanned. The QR      application to access the digital    such as opening a website,          even across people between
                                                code scan can determine which language      content. QR codes always lead the    launching a prefilled email         the ages of 25-55 years.
                                                is dominant on the phone or tablet and      user to information housed on the    or text message, dialing a       •	 The most scanned campaigns
                                                change the message to that language.        Internet so the consumer must have phone number, downloading             included QR codes that gave
                                                The website the QR code leads to can        access to an Internet connection.    contact information, opening        consumers more product
                                                also track click-through information.                                            an application (or directing        information or led to a video.
                                                                                                                                 the user to download one),       •	 Customers reported that they
                           Effectiveness        One QR code scanner company                                                      viewing a video, and more.          most liked QR codes that led
   ELECTRONIC MAIL




                                                reported each of its users                                                                                           to an app download or gave
                                                scanned an average of four QR                                                                                        them more product information.
                                                codes in the first quarter of 2014
                                                (with 5 million active users).
                                                                                                                                                          Scan Me


                                   Click the Links to Learn More
   DIMENSIONAL MAIL




                                                                         Case Studies
                               Demos




                                        https://www.youtube.com/
                                        watch?v=eWMoqj7ds_Y
   APPENDIX




                      Mail Innovations Report Number RARC-WP-14-013                                                                                      Print                                      9
                        Augmented Reality
EXECUTIVE
SUMMARY




                        Augmented reality (AR) is a technology that allows users to see previously static content on their mobile device, including a smartphone or tablet, in a new,
                        interactive way. AR requires a user to download an app to reach bonus digital content. AR takes a physical communication, like a magazine advertisement,
                        and activates a digital experience to create an alternate “reality” by superimposing images onto a mobile device’s camera screen. AR is designed to extend
                        the print campaign and incorporate an interactive experience that gives the recipient more product information.
CONTENTS
TABLE OF




                         Quick Facts                                                                             How It Is                                                                                           User                                                                                     Response
                                                                                                                 Made                                                                                                Experience                                                                               Rates
                           Price                Pricing schemes vary from one company
                                                to another. Some AR companies have
                                                                                                 •	 Companies providing AR services                                                                         •	 When users see an                                                                    •	 Hidden Creative, a marketing
                                                a pay-per-use system, where a client
 INTRODUCTION




                                                                                                    maintain a catalog of images that                                                                          advertisement with an AR                                                                and training company,
                                                pays an annual fee for the AR company
                                                                                                    can be scanned by a mobile device.                                                                         capability, they need to first                                                          found that consumers were
                                                to store the advertising image in its
                                                                                                    AR does not use a barcode, as                                                                              download an app to their                                                                135 percent more likely to
                                                database and keep the app active. These
                                                                                                    the full advertising image is in                                                                           smartphone or tablet in order                                                           purchase a product they
                                                start at $60 per year. Some companies
                                                                                                    the AR company’s database.                                                                                 to access the additional                                                                viewed through AR than
                                                offer full campaign services, where
                                                                                                 •	 Some AR companies help craft the                                                                           content. The user must be                                                               a product they saw in a
                                                they assist in the creation of the print
                                                                                                    user’s experience by designing                                                                             connected to the Internet to                                                            traditional advertisement.
                                                material integrating the AR features.
                                                                                                    the AR experience for the client.                                                                          activate the AR feature.                                                             •	 Some AR components
   CONNECTED MAIL




                                                These campaigns are priced individually.
                                                                                                    Other companies provide software                                                                        •	 Once the app is downloaded                                                              prompt users to share their
                                                                                                    programs that allow the client                                                                             and the image is scanned, the                                                           experience with the app
                           Analytics            AR companies can track the total                    to make their own experience                                                                               technology adds something                                                               through social media outlets.
                                                number of scans, the number of                      through user-friendly tools.                                                                               to the view on the user’s                                                               This creates a higher pass
                                                unique users, the length of time a                                                                                                                             screen that was not there                                                               along rate and greater
                                                                                                 •	 It is important to include information
                                                user spends on the app, click-through                                                                                                                          before. The user can choose                                                             customer interaction.
                                                                                                    in the print advertisement that
                                                rates, location, and time of scans.                                                                                                                            which parts of the AR
                                                                                                    entices the recipient to access the
                                                                                                    AR feature. The sender should                                                                              experience to interact with.
   ELECTRONIC MAIL




                           Effectiveness        One company reports that the                        make it clear to the recipient                                                                          •	 AR experiences can lead
                                                click-through rate for its AR app is                that the advertisement’s extra                                                                             users to watch a video, listen
                                                87 percent, which means that almost                 functionality and information                                                                              to music, make purchases
                                                nine out of ten users that scanned an               is worth the effort it takes the                                                                           through mobile commerce,
                                                advertisement engaged with AR app                   recipient to scan the piece.                                                                               virtually try on makeup or
                                                content. A marketing company found                                                                                                                             clothing, play a game, get
                                                that study participants valued                                                                                                                                 directions, receive real-time
                                                products with an AR campaign                                                                                                                                   customer reviews, and access
                                                33 percent higher than those without.
   DIMENSIONAL MAIL




                                                                                                                                                                                                               e-books of information about
                                                                                                                                                                                                               the brand or product.
                                   Click the Links to Learn More
                                                                                                                                                                               Case study - December 2013
                                                                                                                                                                                                                                                                  Case study – March 2014
                                                                                                                                                                               
                                                                                                  Case Studies
                               Demos




                                                                                                                                                                                                                                                                  
                                                                                                                         Maybelline Color Show                                                                      This Old House
                                                                                                                         Blippable ad in Vogue, ELLE, People and US Weekly                                          Blippable cover and multiple pages within magazine	  
                                                                                                                         	  
                                                                                                                          Blipp delivered:                                                                           Blipp delivered:
                                                                                                                         •    Virtual try on of 40 new nail polishes                                                • 	   Product giveaways worth over $500,000
                                                                                                                         •    Shared across social media                                                            •  Customise front cover with own home and headline
                                                                                                                         Blipp effect:                                                                               •  Take photo of bespoke cover and share on social media
                                                                                                                         •  High average interaction time of 4.2 min                                                •  Click-to-buy options
                                                                                                                         •  Provided actionable data: 
                                                                                                                              Improved stock replenishment and informed color choice of subsequent ads.             Circulation - 950,000 print editions	  
                                                                                                                         •  Over 10% of users shared across social media
   APPENDIX




                                                                                                                                                                                                                     Blipp effect – High number of blipps per reader, and high 
                                                                                                                         •  Great media coverage and high interest from bloggers

                                       https://www.youtube.com/       https://www.youtube.com/
                                                                                                                                                                                                                     average dwell time of 5.56 minutes
                                                                                                                                                                                                                   
                                                                                                                                                                                                                     	  
                                       watch?v=vDNzTasuYEw            watch?v=VwMqaa3w-
                                                                                                                               112,889                  57,871                  2.1
                                                                                                                              TOTAL BLIPPS        UNIQUE USERS        AVERAGE BLIPPS                                      163,265               27,930              5.8
                                                                                                                                                                                                                                                                 AVERAGE BLIPPS

                                                                      I8s&list=UUpT_OfKB-
                                                                                                                                                                                                                            TOTAL BLIPPS       UNIQUE USERS




                                                                      GLSC7Nx6mG2AFEg                                                                                                                                                                                                                                 © 2014 Blippar LLC

                      Mail Innovations Report Number RARC-WP-14-013                                                                                                                                                                                                                         Print                                    10
                        Near Field Communication
EXECUTIVE
SUMMARY




                        Near field communication (NFC) is a technology that allows a passive chip, or tag, to communicate with a cell phone through radio waves. NFC enables
                        digital features to automatically engage consumers that have enabled mobile devices near advertising material with NFC functionality. It helps companies
                        tell a better story using a mobile device as a conduit.
                                                                                                                                                                                      Response
CONTENTS




                                                                                                            How It Is                           User
TABLE OF




                         Quick Facts
                                                                                                            Made                                Experience                            Rates
                           Price                NFC tags can cost as little as $0.40
                                                each, but the majority of the cost of            •	 NFC tags are so thin that they     •	 NFC tags have a very short         •	 Eighty-eight percent of
                                                creating an NFC-enhanced campaign                   can be placed into stickers,          bandwidth, meaning that a user        smartphone users would
                                                comes from designing the mobile                     which can then be attached            can only get the information          consider using NFC to interact
                                                content and programming the tags.
 INTRODUCTION




                                                                                                    to print advertisements.              stored on the NFC chip by             with a poster that interested
                                                                                                 •	 NFC tags are programmed               holding their phone very              them, according to the 2013
                           Analytics            NFC can track where and when a                      to send the small amounts of          close to, or tapping, the tag.        Mobile Path-to-Purchase study
                                                consumer scanned a tag. All website                 information they contain to        •	 NFC allows a consumer to              from xAd and Telemetrics.
                                                click-through rates spurred by the NFC              NFC-enabled devices, which            view rich media content,           •	 According to one NFC provider,
                                                tag are tracked through web analytics.              are mostly smartphones.               buy products, engage with a           consumers most want to
                                                NFC companies can also detect the                   About 30 percent of the               company through social media,         interact with an NFC tag to
                                                type of device that taps the tag.                   smartphones in America are            download an app, sign up              access something fun, to
   CONNECTED MAIL




                                                                                                    NFC-enabled, according to             for offers, download a song,          receive location information, or
                           Effectiveness        Additional awareness about NFC                      Blue Bite, a company that             watch a video, and more. By           to access mobile web content.
                                                capabilities is likely to increase NFC’s            uses NFC tags in marketing            directing an NFC-enabled           •	 Companies that offer NFC tag
                                                use and enhance its effectiveness. A                campaigns. More companies             device online, anything that can      services often incorporate both
                                                study by ClearChannel and Posterscope               have recently annunced their          be done through a website can         QR codes and NFC tags in
                                                found that six in ten people with an                intent to add NFC functionality       be done through an NFC tag.           their campaigns. One company
                                                NFC-enabled smartphone do not realize               to their smartphones.                                                       reported a dramatic shift in the
                                                they have the capability. After being            •	 When an NFC-enabled phone                                                   number of users choosing NFC,
   ELECTRONIC MAIL




                                                shown a preview and how to use NFC,                 is held in close proximity to an                                            with a 488 percent increase
                                                70 percent of the people interviewed                NFC tag, the tag automatically                                              in monthly NFC taps between
                                                said they thought NFC inclusion on                  directs the phone to the digital                                            May 2012 and April 2014.
                                                their next phone was important.                     experience – the user does
                                                                                                    not need to download an app
                                                                                                    to activate the experience.

                                   Click the Links to Learn More
   DIMENSIONAL MAIL




                                                                                                          Case Studies
                               Demos




                                        https://www.youtube.com/      https://www.youtube.com/
                                        watch?v=nJLTr6CEJh8           watch?v=suwappe3qnw
   APPENDIX




                      Mail Innovations Report Number RARC-WP-14-013                                                                                                Print                                       11
                        Webkeys
EXECUTIVE
SUMMARY




                         Webkeys are designed to give consumers control over their physical-to-digital experience by personalizing the way they interact with mail, catalogs, or other
                         printed materials. Webkeys digitally enable printed materials by integrating a USB drive that, when plugged into a computer, can initiate a user-specific
                         experience. Some webkeys are secure, meaning that the data is locked. Online, consumers can be steered toward any web-based content that the designer
                         chooses. Even offline, some webkeys allow consumers to view video or documents stored on the webkeys’ internal memory.
CONTENTS
TABLE OF




                                                                                                          How it is                         User                              Response
                         Quick Facts
                                                                                                          Made                              Experience                        Rates
                           Price                Webkeys that function by pushing the
                                                user to a website cost about $3 per         •	 A webkey is a pre-programmed        •	 Plugging a webkey into a        •	 One company that
 INTRODUCTION




                                                piece. Advanced webkeys, such as               USB storage drive folded into or       computer via a USB port            produces webkey marketing
                                                eBridge Arcs, have built-in memory             protruding from a hardcopy direct      automatically takes the            campaigns said that the
                                                allowing for offline use, start at about       mailpiece. One advanced type of        consumer to a specified            average enhanced campaign
                                                $5 per piece. Price depends on                 webkey, called an eBridge Arc,         destination: PDF, website,         received a response rate of
                                                how much data the piece holds.                 includes security encryption that      or other content.                  over 10 percent, with some
                                                                                               ensures the USB drive cannot        •	 Some advanced webkeys              campaigns returning a response
                           Analytics            Each webkey in a campaign has a unique         be wiped or reprogrammed.              provide the user with a            rate as high as 78 percent.
                                                identifier, allowing senders to track       •	 The webkey, when plugged into          template page through which
   CONNECTED MAIL




                                                which recipients activate the webkey.          a computer, either automatically       the user can choose from
                                                Webkeys provide analytics about the            directs the recipient’s browser to     different types of experiences.
                                                user’s experience, including: number           the sender’s online content, or        Advanced webkeys also allow
                                                of times used, when used, location of          the webkey can display videos or       users to access the webkey
                                                computer (IP address), and how the             documents, which can be viewed         experience on their computer
                                                user interacted with digital content.          without an Internet connection.        anytime, even without the
                                                Webkeys used offline store the user’s       •	 Webkeys can detect whether the         webkey, as long as they have
                                                information in the computer’s cache, and       computer has an active Internet        plugged in the webkey once.
   ELECTRONIC MAIL




                                                that information is automatically sent to      connection, meaning that one        •	 Senders can program the
                                                the webkey company the next time the           webkey can deliver two experiences     webkey to display personalized,
                                                computer is connected to the Internet.         – one for offline users and one for    interactive content for a
                                                The analytics the webkeys collect              those connected to the Internet.       uniquely tailored experience
                                                allow the sender to cater messages to                                                 that the recipient can control.
                                                recipients in future correspondence.
                                                                                                         Click the Links to Learn More
                           Effectiveness        Webkeys generate a high response
   DIMENSIONAL MAIL




                                                rate. The information gathered during
                                                                                                  Case Studies




                                                webkey interactions is usually quite
                                                rich, and often includes the recipient’s
                                                contact information and preferences.
   APPENDIX




                      Mail Innovations Report Number RARC-WP-14-013                                                                                         Print                                    12
                        Video in Print
EXECUTIVE
SUMMARY




                        Video in print allows an advertisement to bridge the gap between physical and digital by putting a television screen onto a printed piece that the recipient
                        can view. This technology embeds screens of various sizes into print media. The printed piece can have buttons to stop, play, or select between different
                        videos. The piece can also be programmed to begin playing automatically when the page is opened. No Internet connectivity is required.
CONTENTS
TABLE OF




                         Quick Facts                                                                              How it is                      User                                 Response
                           Price              Video in print pieces with a 2.4 inch screen                        Made                           Experience                           Rates
                                              start at $19.95 per piece, if 10,000 are             •	 The self-contained video in       •	 When a consumer opens a          •	 One company that creates
                                              ordered. This price goes up as the screen               print pieces have a paper            video in print piece, the video     video in print mailpieces
                                              size increases, the memory on the piece                 pocket that contains the             and audio can be cued to            reported that a piece it designed
 INTRODUCTION




                                              increases, or the quantity ordered decreases.           battery, LCD, shatter-resistant      begin playing instantly. From       advertising a television show
                                                                                                      screen, speaker, and all             there, the consumer controls        had a 98 percent recall rate.
                           Analytics          If the mailpiece has a built-in Wi-Fi                   necessary wires to control           the piece through stop,          •	 Buzz tracking for the
                                              connection, it can track how many                       the buttons and video.               pause, and play buttons.            television advertisement
                                              times the piece is activated and, if the             •	 Video in print pieces can         •	 The consumer can use buttons        showed that the company
                                              piece contains multiple videos, how                     hold between five and                on the paper to rewind, fast        received a 400 percent
                                              many times each video is watched.                       forty-five minutes of video.         forward, or begin another video.    lift in social media and
   CONNECTED MAIL




                                                                                                   •	 Units come with a rechargeable       Video in print pieces can hold      blog conversations.
                           Effectiveness      A global telecom company using                          battery that hooks into a            up to five separate videos.      •	 Starch Communications, a
                                              video in print found that each recipient                USB drive.                                                               media research firm, found
                                              opened the piece an average of six                   •	 The video screens range in size                                          that inserts that included
                                              times. Users watched an average of                      from 2.4 inches to 7 inches.                                             video in print delivered a
                                              19 minutes of video from the piece,                                                                                              100 percent brand recall
                                              and recipients were still activating the                                                                                         rate and a 91 percent
                                              piece four months after they received it.                                                                                        pass along rate.
   ELECTRONIC MAIL




                                              Another company reported a 21 percent
                                              increase in sales in stores using video
                                              in print units to market their goods.



                                    Click the Links to Learn More
                                   Demos




                                                                                                       Case Studies
   DIMENSIONAL MAIL




                                           https://www.youtube.com/    http://www.americhip.com/vid/
                                           watch?v=eyivWk5R9qg         vip-touch-video-in-print.html
   APPENDIX




                      Mail Innovations Report Number RARC-WP-14-013                                                                                                Print                                      13
                        Mobile in Print
EXECUTIVE
SUMMARY




                        Electronics are getting thinner, and advertisers are getting more creative. With mobile in print technology, it is now possible to add a direct communication
                        portal, such as phone or text messaging system, into a direct mailpiece. This technology would allow a user to contact a company through either a phone
                        call by pressing a button on the paper, or through a text message via a keyboard on the paper. Mobile in print gives consumers the ability to quickly and
                        easily contact a company and has the added benefit of providing consumers with a unique and memorable user experience. The piece can be used time
CONTENTS
TABLE OF




                        and time again, and the return on objective has proved to be very high.


                         Quick Facts                                                                       How It Is                           User                                    Response
                           Price                Mobile in print starts at $52.65 per
                                                                                                           Made                                Experience                              Rates
 INTRODUCTION




                                                piece if 10,000 pieces are ordered.             •	 A Wi-Fi network is placed into     •	 The mailpiece can have a “call       •	 One company reported
                                                Mailpieces with both video and mobile in           the mailpiece, which runs the         now” button that connects the           that response rates were
                                                print start at $71.55 per piece. Because           mobile technology. The mobile         consumer to the company’s               over 66 percent.
                                                of its price, targeting is imperative              in print application is fully         phone line to let the user place     •	 On average, recipients
                                                                                                   rechargeable via a USB cable          an order or get a price quote.          used each mailpiece
                           Analytics            The mailpiece can track when a call or             that comes from within the         •	 The mailpiece can have a                to make two calls.
                                                text was placed; how long the call lasted;         paper. The mailpiece either has       small, flat keyboard in it,          •	 Users spent an average
   CONNECTED MAIL




                                                and how many times the mailpiece                   a microphone and speaker to           allowing users to text their order      of six minutes engaging
                                                was used to call or text the company.              enable a call or a keyboard with      or contact information to the           with the mailpiece.
                                                                                                   a screen to show the text typed.      company so the company could
                           Effectiveness        A technology company reported                   •	 The standard activity limit           follow-up with the consumer
                                                customers spent more time                          is either 50 calls, 100 SMS           once they prepared a contract
                                                with mobile in print pieces than                   messages, or 30 days, according       or created a price quote.
                                                traditional mailpieces. Recipients                 to a company creating mobile
                                                accessed the mobile in print                       in print pieces. Extended
   ELECTRONIC MAIL




                                                mailer an average of 3.8 times.                    service is also available.



                                   Click the Links to Learn More
                               Demos




                                                                                                                   Case Studies
   DIMENSIONAL MAIL




                                         http://vimeo.com/92370890             http://www.americhip.com/vid/
                                                                               video-mobile-in-print.html
   APPENDIX




                      Mail Innovations Report Number RARC-WP-14-013                                                                                                 Print                                   14
                        Conductive Ink - Research and Development
EXECUTIVE
SUMMARY




                        Conductive ink is ink that can carry an electric charge and is printed on a hard copy page. Conductive ink can link a battery pack, processing chip, and
                        any device that requires electricity. It can also be used to create interactive printed material, such as generating noise from a speaker, creating a Bluetooth
                        connection that brings up a related app on a mobile device, or making a bulb light up. Conductive ink can be used to create buttons on paper that activate
                        the electronic part of the piece. This innovation is still in the early stages of development, and many of the possible applications are in the testing phase.
CONTENTS
TABLE OF




                         Quick Facts                                                                                      How It Is                            User                                   Possibilities For
                           Price                                 The price of conductive ink depends
                                                                                                                          Made                                 Experience                             The Future
                                                                 on many factors; each campaign is a            •	 Conductive ink couples low         •	 Users see a printed piece           •	 One company that is developing
                                                                 different price depending on the power            cost electronics and printing.        of paper, which could be a             conductive ink listed many more
 INTRODUCTION




                                                                 the piece needs to function and the               As computer chips continue to         mailpiece, poster or some other        future applications, especially
                                                                 expense of the electronic connecting to           decrease in price and increase        hard copy communication,               with packaging. The company
                                                                 the piece (e.g., a light bulb or speaker).        in capability, the ability to         which includes some signal             representative described a
                                                                 According to one company, shipping                mass produce progressively            that it has an electronic              pill packet that could activate
                                                                 is currently a major cost, as shipping            more powerful printed                 component, such as a                   a timer when it was opened,
                                                                 batteries carries certain restrictions. In        electronics continues to rise.        “press here.” When the user            allowing people to see how
                                                                 the future, the company expects to see         •	 Companies that produce and            touches the paper, the printed         many hours have passed
   CONNECTED MAIL




                                                                 more electronic printing in local markets.        engineer conductive ink work          piece may light up, make a             since they last took a pill.
                                                                                                                   with printers to integrate the        sound, or activate a mobile         •	 The company is also in
                           Analytics                             Conductive ink that activates an app              ink and electronic components         device through Bluetooth.              the process of developing
                                                                 on a mobile device allows the company             into marketing pieces.             •	 Currently, there are limited           technology that would turn
                                                                 to track usage through the app.                •	 Conductive ink is ink that is         uses for conductive ink. Electric      off the conductive piece in
                                                                                                                   mixed with carbon, copper, or         engineers at conductive                the dark. This would prolong
                                                                                                                   silver. The ink functions as the      ink companies are rapidly              printed electronics’ battery life.
                                                                                                                   wire of the electronic device,        developing new applications.        •	 Other possible developments
   ELECTRONIC MAIL




                                             Click the Links to Learn More                                         connecting the components          •	 Conductive ink can either              include microphones,
                                                                                                                   to create a working piece.            connect to an electronic               built-in volume control,
                                                                                                                •	 Battery size and shape                that is constantly on, such            increased Bluetooth
                               Presentations and Demos




                                                                                                                   changes depending on the              as a small light bulb, or the          connectivity, the ability to
                                                                                                                   size and power of the piece.          electronic can be activated            capture data from the user, the
                                                                                                                   One company uses speakers             by touching the piece.                 ability to direct a phone straight
                                                                                                                   that are 6 millimeters thick.                                                to a website, and the ability to
                                                                                                                                                                                                interact with social media by
                                                         https://www.youtube.com/    https://www.youtube.com/                                                                                   pressing a button on the piece.
   DIMENSIONAL MAIL




                                                         watch?v=bXBDJYdN3pM         watch?v=Atb0qjopErk
   APPENDIX




                                                         https://www.youtube.com/    https://www.youtube.com/
                                                         watch?v=lpxe6uzuM4M         watch?v=KTpGCAi0oy-
                                                                                     g&list=UUdysVgW_dLagl-
                                                                                     rqcq_CoDPA

                      Mail Innovations Report Number RARC-WP-14-013                                                                                                                  Print                                       15
                        Interesting Inks
EXECUTIVE
SUMMARY




                        Interesting inks can make any advertising message pop off the page. Chemical compounds can be added to inks to make certain colors disappear or
                        reappear depending on temperature, moisture, or light exposure. These ‘secret messages’ can further engage recipients and add an interesting element
                        to what would otherwise be a traditional-looking mailpiece. The inks are either made through adding a chemical powder to ink or adding the chemical
                        compounds to a slurry, which is a mixture of the liquid ink and solid pigment particles that are mixed and milled to create the desired color and thickness. The
CONTENTS
TABLE OF




                        inks described on this page require recipients to engage with the advertisement more than a traditional mailpiece because they have to do something to the
                        advertisement in order to receive the full message. Some companies providing interesting inks can print the mailpiece, while others collaborate with local printers.

                        Leuco Dyes                                                                                 Photochromics
                        There are a number of chemicals that can be added to ink that can                          These inks change color when ultraviolet (UV) light, like sunlight, comes
 INTRODUCTION




                        change its color with variations in temperature. Changes in temperature                    in contact with the printed material. The image will return to its original
                        can transform these dyes from clear to a color or from a color to clear. A                 state when taken out of UV light, unless it is exposed to the light for more
                        change from a color to clear can reveal a printed message in the marketing                 than a day. After the advertisement is out in the sun for more than a day,
                        material that was not visible under the leuco dye until the advertisement’s                the color change will be permanent because UV light slowly erodes the
                        environment reaches a certain temperature. Leuco dyes are also                             ink’s ability to change back and forth. Photochromic chemicals come in a
   CONNECTED MAIL




                        reversible, in that once you take the hot or cold element away, they return                slurry or powder and can be added to any type of ink.
                        to their original state, as either a colored dye or a clear layer of ink.

                        Hydrochromics                                                                              Flasher
                        These inks change color when they come in contact with liquid. They                        Flasher is a recently developed ink technology that is based off of
                        can either be reversible, meaning that the original image will reappear                    reflectivity. When consumers view the advertisement, they just see what
                        after the advertisement has dried, or the inks can be non-reversible,                      is printed in regular ink. In order to get the full message, a consumer
   ELECTRONIC MAIL




                        meaning that the image will permanently change once water is applied                       would need to apply a bright light, like a smartphone camera flash, to
                        to it. To create an advertisement using hydrochromic ink, a layer                          the printed piece. The photo of the advertisement would show the full
                        of any color ink is first applied through the printing process. Then,                      message, including the portion not visible to the naked eye.
                        the hydrochromic ink, which is white, is printed over it. When the
                        hydrochromic advertisement gets wet, the image goes from white to
                        clear, exposing the message printed beneath it.
   DIMENSIONAL MAIL




                                                                                           The Latest Buzz about Ink
                                                      A Sri Lankan newspaper got creative this year during National Dengue Week, an event aimed at raising
                                                      awareness and helping prevent dengue fever, a mosquito-borne disease. The newspaper mixed citronella
                                                      oil into the ink used to print the paper, so the paper itself became a natural insect repellent. The inclusion
                                                      of the citronella oil in the ink newspaper motivated Sri Lankans to purchase and hold on to the papers. The
                                                      newspapers sold out by 10 AM, and it increased newsstand sales by 30 percent. The readership increased by
   APPENDIX




                                                      300,000 when the ink was infused with citronella oil.
                                                      For more, see: https://www.youtube.com/watch?v=rMN0_6ytY9I

                      Mail Innovations Report Number RARC-WP-14-013                                                                                        Print                                  16
                      Customized MarketMail	
EXECUTIVE
SUMMARY




                      Customized MarketMail, sometimes called shaped mail, is a category of mail that has unique characteristics, including interesting shapes, sizes, and materials.
                      Customized MarketMail allows advertisers to think outside of the envelope, since, unlike traditional mail, irregularly shaped Customized MarketMail does not
                      need to be enclosed in an envelope or box.
CONTENTS
TABLE OF




                       Quick Facts                                                                    How It Is                               User                                 Response
                                                                                                      Made                                    Experience                           Rates
                        Price               One company charges $0.90 per piece for
                                            an order of 2,500 customized MarketMail                                                                                       •	 One shaped mail company
                                                                                            •	 Mailers can work with a              •	 Customized MarketMail
                                            pieces, which includes the shipping cost.                                                                                        reports that using shaped mail
                                                                                               number of companies to                  is delivered directly to the
                                            Another company said that, on average,                                                                                           has been shown to increase
                                                                                               design Customized MarketMail,           customer without an envelope,
 INTRODUCTION




                                            a marketing campaign using Customized                                                                                            responses by as much as
                                                                                               which can include unique                so the user is able to see the
                                            MarketMail is two to four times the cost                                                                                         300 percent or more.
                                                                                               die cuts, a variety of sizes,           unique design immediately,
                                            of a traditional direct mail campaign.
                                                                                               material of varying thickness,          and it often stands out from the   •	 A food and beverage
                                                                                               and nearly any shape.                   rest of the mail in the stack.        company using Customized
                        Analytics           Perforated reply cards and coupons are often    •	 The U.S. Postal Service              •	 Customized MarketMail                 MarketMail saw a redemption
                                            found attached to or within a Customized           has designated Customized               usually incorporates bright           rate over 10 percent with
                                            MarketMail piece. These pieces allow a             MarketMail as a specific category       colors. It is often printed           a cardstock Customized
   CONNECTED MAIL




                                            company to track the effectiveness of the          and accepts these pieces                on unique materials, like             MarketMail campaign,
                                            advertisement. One company providing               under this designation, as long         plastic, hard foam, or metal.         and over 14 percent with
                                            Customized MarketMail services reported            as they weigh 3.3 ounces or             This mail not only looks              a plastic Customized
                                            that it has seen QR codes, augmented reality,      less. Pieces can be between             different than traditional mail,      MarketMail campaign.
                                            and NFC incorporated into its shaped mail.         3 ½ and 12 inches high and              it feels different as well.
                                                                                               between 5 and 15 inches long.
                        Effectiveness       One company reported that a traditional         •	 Mailpieces under the Customized
                                            mailer that used a plastic Customized              MarketMail designation can
   ELECTRONIC MAIL




                                            MarketMail piece saw almost double                 be made out of virtually any
                                            the amount of call activity after                  material, as long as they fit
                                            incorporating Customized MarketMail                within the size requirements
                                            into its marketing campaign.                       listed above. One company
                                                                                               offered mailpieces in clear, thin
                                                                                               plastic, green-friendly plastic, and
                                                                                               pieces with an aluminum finish.
                                                                                            •	 Mailpieces in the Customized
                                Click the Links to Learn More                                  MarketMail category have a
   DIMENSIONAL MAIL




                                                                                               different shipping method than
                                                                                               traditional advertising mail.
                             Demos




                                                                  Case Studies




                                                                                               Customized MarketMail
                                                                                               must be delivered to a
                                                                                               U.S. Postal Service
                                                                                               Destination Delivery Unit,
                                                                                               and there is a minimum of
                                     https://www.youtube.com/                                  200 pieces per mailing.
                                     watch?v=hLpKuiI69r0&fea-
   APPENDIX




                                     ture=youtu.be




                      Mail Innovations Report Number RARC-WP-14-013                                                                                             Print                                     17
                        3D Mail
EXECUTIVE
SUMMARY




                        Three-dimensional (3D) mailpieces are shippable, lightweight designs that, when opened, either fold, pull, or pop into a piece that stands on its own.
                        The design allows a marketer’s message to stand out.


                         Quick Facts                                                                      How It Is                             User                                   Response
CONTENTS
TABLE OF




                                                                                                          Made                                  Experience                             Rates
                          Price               The price of 3D mail depends on the
                                              quantity ordered, the type of 3D mail                                                                                          •	 One company specializing in
                                                                                                 •	 3D mailpieces can either be       •	 Recipienets interact with 3D
                                              used, and the amount of design effort                                                                                             providing services to design
                                                                                                    custom designed, or a mailer         mail to receive the full message.
                                              needed to create the mailpiece.                                                                                                   and print 3D mailpieces
                                                                                                    can choose from a variety of      •	 Most pieces of 3D mail do not
                                                                                                    stock designs available from         require assembly by the end            reported that recipients are
 INTRODUCTION




                                                                                                    3D mail companies. These             consumer; when the consumer            more likely to keep 3D mail.
                          Analytics           While 3D mail does not always                         oftentimes colorful pieces take      opens the piece, the 3D aspect         Additionally, consumers are
                                              have a feedback element, other                        on many shapes and sizes.            comes together automatically.          likely to display these unique
                                              innovations like QR codes or NFC                   •	 3D mail companies print, cut,                                               mailpieces at their workplaces
                                                                                                                                      •	 3D mailpieces come in a
                                              can be incorporated into 3D mail.                     fold, and construct mailpieces                                              and in their homes, which
                                                                                                                                         variety of forms. Some fold out
                                                                                                    that lay flat during shipment                                               increases the 3D mail’s visibility.
                                                                                                                                         into free standing structures.
                          Effectiveness       One company that creates 3D mail                      but transform when the               Others allow the consumer           •	 According to CRMTrends,
   CONNECTED MAIL




                                              reported that 84 percent of consumers                 mailpieces are out of the            to change the image on the             direct mailpieces that include
                                              it surveyed opened their 3D mailpiece                 envelopes. Some companies            advertisement by pulling a tab.        a pop-up feature can increase
                                              multiple times. The company reported                  that produce 3D mail also                                                   response rates up to
                                                                                                                                      •	 A different type of 3D mail
                                              that consumers retained 3D mail for a                 provide shipping services.                                                  40 percent when compared to
                                                                                                                                         is one that grows through
                                              longer period of time than traditional mail.                                                                                      a conventional, flat mailpiece.
                                                                                                                                         telescoping, meaning a series
                                                                                                                                         of smaller messages come            •	 The Direct Marketing
                                                                                                                                         out of the initial message.            Association’s 2011 Response
                                                                                                                                                                                Rate Report concluded that 3D
                                                                                                                                                                                mail is the most effective type
   ELECTRONIC MAIL




                                  Click the Links to Learn More                                                                                                                 of direct response marketing
                                                                                                                                                                                with an average response
                               Demos




                                                                                                                                                                                rate of nearly 5.5 percent.




                                         https://www.youtube.com/           https://www.youtube.com/        https://www.youtube.
   DIMENSIONAL MAIL




                                         watch?v=gB0tvPhgJTQ                watch?v=ZzTRtUS66Hg&index-      com/watch?v=_ph8Orr-
                                                                            =3&list=PL1jna1WSuMQKuRa-       bi_k&list=PL1jna1WSuMQLeeg-
                                                                            2dUr_MPyoByFc6FhGa              T0z2vQfpd42xM7E451
   APPENDIX




                                         https://www.youtube.               https://www.youtube.com/
                                         com/watch?v=PJWA-                  watch?v=8KuEfXzf6c-
                                         f0IAu70&list=PL1jna1WSuMQKu-       M&list=PL1jna1WSuMQK-
                                         Ra2dUr_MPyoByFc6FhGa               JEYvGDX6tzQN7tuvUkBtw

                      Mail Innovations Report Number RARC-WP-14-013                                                                                                Print                                         18
                        Appendix: Research Activities
EXECUTIVE
SUMMARY




                        To develop this paper, the OIG contacted 25 companies offering innovative solutions for direct mail. The following companies responded, and
                        the information they provided contributed to the content of this paper. The OIG interviewed 12 of the companies, while other companies provided
                        studies, pricing, and examples. In addition to working with companies that provide mail innovations, the OIG also conducted research and
                        interviewed representatives at the Postal Service and Organic and Printed Electronics Association.
CONTENTS
TABLE OF




                        The following are some of the companies that could provide innovative services, but this list is not exhaustive and does not represent an
                        OIG endorsement.
 INTRODUCTION




                        Connected Mail                                                           Electronic Mail

                        •	 Scanbuy – QR Codes                                                     •	 Curveball Printed Media – Video in Print
                                                                                                  •	 Ninety2i – Video in Print
                        •	 BeQRious.com – QR Codes
                                                                                                  •	 UVIAUS – Video in Print
                        •	 Mobile-barcodes.com – QR Codes
                                                                                                  •	 Americhip – Mobile in Print and Video in Print
   CONNECTED MAIL




                        •	 Blippar – Augmented Reality                                            •	 Novalia – Conductive Ink
                        •	 Layar (now part of Blippar) – Augmented Reality                        •	 Bare Conductive – Conductive Ink
                        •	 Aurasma – Augmented Reality
                        •	 Metaio – Augmented Reality                                            Dimensional Mail
                        •	 NFC-Forum.org – Near Field Communication
   ELECTRONIC MAIL




                                                                                                  •	 LCR Hallcrest – Interesting Inks
                        •	 Blue Bite – Near Field Communication and QR Codes
                                                                                                  •	 ShipShapes – Customized MarketMail
                        •	 Ninety2i – Near Field Communication and Webkeys                        •	 3D Paper Graphics – 3D Mail
                        •	 Americhip – Webkeys                                                    •	 Americhip – 3D Mail
   DIMENSIONAL MAIL
   APPENDIX




                      Mail Innovations Report Number RARC-WP-14-013                                                                               Print                   19
EXECUTIVE
SUMMARY
CONTENTS
TABLE OF
INTRODUCTION
CONNECTED MAIL




                   U.S. Postal Service Office of Inspector General
                                1735 N. Lynn Street
                                Arlington, VA 22209
ELECTRONIC MAIL




                             Telephone: 703-248-2100
                                 www.uspsoig.gov

                   For media inquiries, contact Agapi Doulaveris
                            Telephone: 703-248-2286
DIMENSIONAL MAIL




                            adoulaveris@uspsoig.gov
SUMMARY
 APPENDIX




                                                                     Print
